No. 20-

3fn HZfje

Supreme Court of tl)e Untteti States
GREGORYS. MERCER,
Petitioner,
vs.
E. A. Vega, et al.
Respondents.

On Petition For Writ Of Certiorari To The United
States Court Of Appeals for The Fourth Circuit

CERTIFICATE OF COMPLIANCE FOR
PETITION FOR WRIT OF CERTIORARI

Gregory Shawn Mercer,
Petitioner, pro se
3114 Borge Street
Oakton, Virginia 22124
202-431-9401

TB'M
;

[

I

I

i

»#§iks-

\

21120 SEP i 1 P 2-* 55

J

I

1
CERTIFICATE OF COMPLIANCE
I hereby certify that on this 10th day of
September, 2020, I have filed one copy of a Petition
for Writ of Certiorari to the U.S. Court of Appeals
for the Fourth Circuit in this SCOTUS. This is Paid
Petition following SCOTUS Rule 33.1 to the best of
my ability. Filed with this Petition for Writ of
Certiorari is a SCOTUS Rule 38(a) Personal Check
made out to the “Clerk of the Supreme Court” for
$300.
The U.S. Court of Appeals for the Fourth
Circuit denied my December 12, 2019 Informal
Petition for Rehearing on February 3, 2020. By
Order of this Court dated March 19, 2020 and due
to health concerns related to COVID-19, the Review
on Certiorari: Time for Petitioning (SCOTUS Rule
13.1) deadline was extended from 90 to 150 days
making my filing deadline July 2, 2020 to file this
Petition for Writ of Certiorari. I filed a Petition for
Writ of Certiorari timely on July 2, 2020 which had
13,618 Words along with a June 28, 2020
Application to Circuit Justice John G. Roberts, Jr.
for a Rule 33.1(d) Expansion of the Rule 33.1(g)
Word Limit in Excess of 9,000 Words in a Petition
for Writ of Certiorari.
Chief Justice John G.
Roberts, Jr. denied my June 28, 2020 Application
on July 13, 2020 and by July 14, 2020 Letter from
the Clerk of this Court I was given an additional 60
days to re-file my Petition for Writ of Certiorari
under 9,000 Words. Additionally and by Order of
this Court dated April 15, 2020, Court filing for
SCOTUS Rule 33.1 can be by a single copy on 8
x 11” paper. As the Court may later request

1

■

3
Statement of the Case; 5) Direct and Concise
Argument for Granting Writ; 6) Conclusion; and 7)
28 U.S.C. §1746 Declaration / Signed Sections. The
List of Counsel at the end of the document was
omitted from the Word Count in accordance with
SCOTUS Rule 33.1(d).
I have two SCOTUS Rule 10(a) U.S. Courts
of Appeal Circuit Splits and one SCOTUS Rule
10(c) Question of Exceptional Importance in
addition to proceeding pro se in this Court as I have
proceeded pro se the last U.S. Court of Appeals for
the Fourth Circuit. My previous attorney Dawson,
P.L.C. abandoned me in the U.S. District Court for
the Eastern District of Virginia (VAED) on
5/22/2019 after its attorney SW Dawson, Esquire
failed to present my complete Disputed Statement
of Facts in a Summary Judgment Proceeding on
March 27, 2019 in that U.S. District Court for the
Eastern District of Virginia.
Consequently,
Dawson, P.L.C. is a Respondent to this Petition for
Writ of Certiorari to explain his ethical position.

28 U.S.C. §1746 DECLARATION / SIGNED
I certify under penalty of perjury under the
laws of the United States of America that the
foregoing is true and correct.

gr:

:Y SHAWN MERCER, pro se

3

